No. 21-187
In The

Supreme Court of the United States
HAMDI MOHAMUD,
Petitioner,
v.
HEATHER WEYKER,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
CERTIFICATE OF COMPLIANCE WITH WORD
LIMITATION
In accordance with Supreme Court Rule
33.1(h), the undersigned certifies that the Motion for
Leave and Brief of Peter Schuck as Amicus Curiae in
Support of Petitioner complies with the applicable
word limit set forth in Rule 33.1(g): Exclusive of the
exempted portions identified in Rule 33.1(d), the brief
contains 3806 words. (Consistent with Rule 33.1(d),
the undersigned is relying on the word count utility
in Microsoft Word (Microsoft 365), the word
processing program used to prepare the brief.

Respectfully submitted,
September 8, 2021

SHELDON EISENBERG
Counsel of Record
Sullivan & Triggs, LLP
1230 Montana Avenue,
Suite 201
Santa Monica, CA 90403
(310) 451-8300

seisenberg@sullivantriggs.com

Counsel for AMICUS Curiae

